KANNON K. SHANMUGAM
TELEPHONE
FACSIMILE

(202) 223-7325
(202) 204-7397

E-MAIL: kshanmugam@paulweiss.com

June 25, 2020

BY ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Henry Schein, Inc. v. Archer & White Sales, Inc., No. 19-963

Dear Mr. Harris:
I represent petitioner in the above-captioned matter. I am writing on behalf
of both parties to request extensions of time for filing the merits briefs and joint
appendix in this case, as follows:
Brief for the petitioner and joint appendix:
Brief for the respondent:

August 21, 2020
October 13, 2020

The parties have agreed to the foregoing schedule, which would enable this case to
be heard during the Court’s December 2020 sitting. Should you need any additional
information, please do not hesitate to let me know.
Yours sincerely,
Kannon K. Shanmugam
cc:

Lewis T. LeClair, Esq. (by electronic mail)

